TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Compliance Assurance Process Has
                Received Favorable Feedback, but Additional
                Analysis of Its Costs and Benefits Is Needed



                                        February 22, 2013

                              Reference Number: 2013-30-021




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE COMPLIANCE ASSURANCE                              WHAT TIGTA FOUND
PROCESS HAS RECEIVED FAVORABLE
                                                      The CAP is being administered in accordance
FEEDBACK, BUT ADDITIONAL                              with IRS policies and procedures, and the pilot
ANALYSIS OF ITS COSTS AND                             program followed many key best practices in the
BENEFITS IS NEEDED                                    design and testing of the process. However,
                                                      despite the fact that the CAP pilot program ran
                                                      for six calendar years and the permanent
Highlights                                            program is in its second calendar year of
                                                      operation, the LB&I Division has yet to develop
Final Report issued on                                and implement a plan to thoroughly evaluate
February 22, 2013                                     CAP data.
                                                      TIGTA’s analysis found that the CAP audits are
Highlights of Reference Number: 2013-30-021
                                                      consuming substantially more staff hours than
to the Internal Revenue Service Commissioner
                                                      those under the traditional audit process. This
for the Large Business and International
                                                      makes the hourly revenue rate for the CAP
Division.
                                                      approximately a third of the hourly rate
IMPACT ON TAXPAYERS                                   examiners generated from traditional audits,
                                                      $2,939 versus $8,448, respectively. TIGTA also
Unlike traditional audits, where tax issues are       found that the CAP has not yet been reviewed
often resolved long after the tax return is filed,    as a potential new user fee source.
taxpayers volunteer to participate in the
Compliance Assurance Process (CAP) and                WHAT TIGTA RECOMMENDED
strive to resolve potential tax issues before a tax
                                                      TIGTA recommended that the Commissioner,
return is filed. The CAP, according to Large
                                                      LB&I Division, develop and implement an
Business and International (LB&I) Division
                                                      evaluation plan that verifies the CAP is
statistics, reduces the length of the audit
                                                      delivering sufficient benefits in relation to the
process for both the IRS and large businesses.
                                                      costs being incurred. In addition, the
For taxpayers, achieving tax return certainty can
                                                      Commissioner, LB&I Division, should ensure
significantly enhance public and investor
                                                      that the CAP is assessed as a potential new
confidence. While this and other CAP benefits
                                                      user fee source once the IRS-wide user fee
are important, it is equally important for the LB&I
                                                      guidelines are revised and implemented.
Division to ensure that the enforcement
resources being devoted to the CAP do not             In their response to the report, IRS management
diminish its ability to provide audit coverage over   agreed with the recommendations and plans to
large businesses that do not comply with the tax      take appropriate corrective actions.
laws and choose not to volunteer for the CAP.
WHY TIGTA DID THE AUDIT
This audit was initiated to determine the extent
to which the planning, implementation, and
evaluation for the CAP followed published
guidance and whether it is being administered in
accordance with IRS policies and procedures.
The audit is included in our Fiscal Year 2013
Annual Audit Plan and addresses the major
management challenge of Tax Compliance
Initiatives.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 22, 2012


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Compliance Assurance Process Has Received
                             Favorable Feedback, but Additional Analysis of Its Costs and Benefits
                             Is Needed (Audit # 201130045)

 This report presents the results of our review to determine the extent to which the planning,
 implementation, and evaluation for the Compliance Assurance Process followed published
 guidance and whether it is being administered in accordance with Internal Revenue Service
 (IRS) policies and procedures. This audit is included in our Fiscal Year 2013 Annual Audit Plan
 and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Carl Aley, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                        The Compliance Assurance Process Has Received Favorable
                                 Feedback, but Additional Analysis of Its
                                      Costs and Benefits Is Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Compliance Assurance Process Is Administered in
          Accordance With Internal Revenue Service Policies and Procedures .......... Page 4
          Many Key Issues Were Addressed in Planning and
          Implementing the Compliance Assurance Process ....................................... Page 7
          A Well-Defined Evaluation Plan Needs to Be
          Developed and Implemented ........................................................................ Page 11
                    Recommendation 1:........................................................ Page 16

          The Compliance Assurance Process Needs to Be Included in
          Upcoming Reviews of Potential New User Fee Sources .............................. Page 17
                    Recommendation 2:........................................................ Page 21


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 23
          Appendix II – Major Contributors to This Report ........................................ Page 25
          Appendix III – Report Distribution List ....................................................... Page 26
          Appendix IV – Recommended Approach for Business Process Changes .... Page 27
          Appendix V – Management’s Response to the Draft Report ....................... Page 30
         The Compliance Assurance Process Has Received Favorable
                  Feedback, but Additional Analysis of Its
                       Costs and Benefits Is Needed




                       Abbreviations

CAP              Compliance Assurance Process
FY               Fiscal Year
GAO              Government Accountability Office
IDR              Information Document Request
I.R.C.           Internal Revenue Code
IRM              Internal Revenue Manual
IRS              Internal Revenue Service
LB&I             Large Business and International
OMB              Office of Management and Budget
PFA              Pre-Filing Agreement
TIGTA            Treasury Inspector General for Tax Administration
TY               Tax Year
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed




                                             Background

Increasing voluntary taxpayer compliance and reducing taxpayer burden have been the focus of
many Internal Revenue Service (IRS) initiatives. The IRS’s Large Business and International
(LB&I) Division, formerly the Large and Mid-Size Business Division,1 has developed initiatives
through its issue management strategy to consider new ways of reducing cycle time, improving
currency, lessening taxpayer burden, and improving efficiency. Examples of initiatives that
became LB&I Division programs include the Pre-Filing Agreement (PFA),2 the Limited Issue
Focused Examination,3 and Fast Track Appeals.4
During December 2003 and January 2004, the LB&I Division conducted a business process
review for its issue management strategy that included participation from external stakeholders
to represent taxpayers’ and practitioners’ perspectives. The business process review evaluated
opportunities to leverage previous examination reengineering efforts, as well as the increased
corporate governance requirements brought about by the Sarbanes-Oxley Act of 2002.5 As part
of the business process review, a working group of LB&I Division officials and external
stakeholders created an alternative compliance concept. The concept was discussed by external
stakeholders (e.g., taxpayers, Tax Executives Institute, Securities and Exchange Commission),
internal stakeholders (e.g., IRS Commissioner, Counsel, National Treasury Employees Union),
and LB&I Division officials, and ultimately the Compliance Assurance Process (CAP) was
created.
The CAP is a cooperative effort between the IRS and taxpayers to conduct real-time audits of
businesses with assets of $10 million or more, with a goal of determining the correct tax
treatment of material activity prior to the filing of the tax return. Once the tax return is filed,
there is a postfiling audit to determine if the tax return is consistent with the agreements made
during the prefiling process and whether there are any additional issues not identified that would
require additional examination activity. Figure 1 is a flowchart of the CAP as initially designed.




1
  The IRS realigned and renamed the Large and Mid-Size Business Division to the LB&I Division effective
October 1, 2010. When the term “LB&I Division” is used in this report related to activities before the date of the
transition, it is referring to the Large and Mid-Size Business Division.
2
  Revenue Procedure 2005-12.
3
  IRS News Release 2002-133 (Dec. 4, 2002).
4
  Revenue Procedure 2003-40.
5
  Pub. L. No. 107-204.


                                                                                                             Page 1
                    The Compliance Assurance Process Has Received Favorable
                             Feedback, but Additional Analysis of Its
                                  Costs and Benefits Is Needed



                                       Figure 1: CAP Flowchart




Source: The LB&I Division, September 2004.

In March 2005, the IRS initiated a CAP pilot program, which involved 17 volunteer participants
that were selected based on factors such as industry leadership, industry diversity, working
relationship with the IRS, lack of aggressive tax positions, no major litigation, and resource
availability. In December 2005, the IRS officially announced6 the initiation of the CAP pilot and
stated that upon conclusion it would evaluate the program, consider adjustments, and determine
whether to make the program permanent. The CAP pilot ran from Tax Year (TY)7 2005 through
TY 2011 and ultimately included 161 different business taxpayers.
On March 31, 2011, the LB&I Division announced8 that it had decided to make the CAP a
permanent program starting in TY 2012. The permanent CAP program also established three
levels of participation: 1) Pre-CAP, in which the IRS and taxpayer cooperatively work in the
traditional postfiling examination process to close current audits with the goal of meeting
selection criteria and progressing to the next level; 2) CAP, in which the IRS and taxpayer

6
  Announcement 2005-87.
7
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
8
  IRS News Release 2011-32 (Mar. 31, 2011).


                                                                                                          Page 2
                  The Compliance Assurance Process Has Received Favorable
                           Feedback, but Additional Analysis of Its
                                Costs and Benefits Is Needed



cooperatively work in the prefiling and postfiling examination process to resolve material tax
activity; and 3) Compliance Maintenance, in which there is an adjusted level of IRS examination
based on factors such as the IRS’s experience with the taxpayer during CAP activity as well as
history of compliance risk.
The business taxpayer must meet the following basic eligibility requirements to participate in the
Pre-CAP level:
      Assets of $10 million or more.
      Publicly held entity with a legal requirement to prepare and submit disclosure forms to
       the Securities and Exchange Commission or equivalent regulatory body or, if privately
       held, agree to provide certified, audited financial statements or equivalent documentation
       on a quarterly basis.
      Must not be under investigation by, or in litigation with, the IRS or other Federal or State
       agency that would limit the IRS’s access to current corporate tax records.
To be eligible for the CAP participation level, in addition to the above criteria, taxpayers
currently under audit cannot have more than one filed return under examination and one unfiled
return for the most recently ended tax year. Acceptance into the Compliance Maintenance level
is at the discretion of the Director, Field Operations, and, as noted previously, the acceptance is
based on factors such as the taxpayer’s transparency and cooperation, internal controls, and
history of risky and controversial transactions while in the CAP.
This review was performed at the LB&I Division Headquarters in Washington, D.C.,
and LB&I Division field offices in Jacksonville, Florida; Chicago, Illinois; New York City,
New York; Dallas, Texas; and Salt Lake City, Utah, during the period August 2011 through
September 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                             Page 3
                 The Compliance Assurance Process Has Received Favorable
                          Feedback, but Additional Analysis of Its
                               Costs and Benefits Is Needed




                                Results of Review

The CAP is being administered in accordance with IRS policies and procedures, and the pilot
program followed many key best practices in the design and testing of the process. However, the
LB&I Division needs to develop and implement a plan to thoroughly evaluate CAP data. By
developing and implementing an evaluation plan that includes objective measures and standards
for defining success, the LB&I Division could enhance the credibility and transparency of the
results while helping avoid any perception of bias. Careful assessment of the CAP may also lead
to the identification of necessary revisions to further enhance the process as well as permit
stakeholders to adequately assess whether the CAP is generating sufficient benefits in relation to
its costs. The CAP also needs to be included in an upcoming review of potential new user fee
sources.

The Compliance Assurance Process Is Administered in Accordance
With Internal Revenue Service Policies and Procedures
The procedures for all LB&I Division audits are contained in the LB&I Division Guide for
Quality Examinations (Guide) that is formalized in the Internal Revenue Manual (IRM).
Specific procedures for the CAP were established during the pilot program by means of a user
guide that was last updated in July 2012. When the CAP became a permanent program in
March 2011, the procedures were placed into a draft IRM, which was formalized in June 2012.
This IRM establishes process controls for how the CAP should be administered, along with
applicable general policies and procedures for audit activity. Our review found that the CAP
IRM procedures are consistent with the policies and procedures in the Guide. A comparison of
the two is shown in Figure 2.




                                                                                           Page 4
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed



                     Figure 2: Comparison of Selected CAP Procedures
                     to the LB&I Division Guide for Quality Examinations

    Policies and Procedures per LB&I Division’s
                                                                                   CAP Procedures
           Guide for Quality Examinations
                                                                                    (IRM 4.51.8)
                     (IRM 4.46)

                                                           PLANNING
                                                               “[The CAP] fosters compliance by helping the IRS achieve
 “Currency is a priority for [the] LB&I [Division] and         its goal of reducing overall examination cycle time and
 Agents should explore options to improve currency during      increasing currency for participating taxpayers while
 the planning process.”                                        enhancing the accurate, efficient, and timely resolution of
                                                               complex tax issues.”
                                                               “The IRS and the taxpayer will jointly determine the scope
 “Quality Examination guidelines emphasize the                 of the CAP review, including materiality thresholds.
 importance of ongoing dialogue between the exam team          However, the ultimate decision of identifying transactions,
 and taxpayer throughout execution of the exam plan.”          items, and issues for compliance review remains within the
                                                               discretion of the IRS.”

                                        INSPECTION AND FACT FINDING
 “[The Information Document Request (IDR) Management
                                                               “The scope of any necessary IDRs should be discussed in
 Process] encourages collaboration between the taxpayer
                                                               an open and honest manner and the parties should reach
 and IRS personnel to agree on and provide information
                                                               mutually agreed upon due dates for the responses.”
 needed to support an examination.”
 “[The team coordinator or revenue agent] should follow        “If for any reason the taxpayer is unable to comply with
 up with the taxpayer when the IDR is 15 calendar days         the due date of an IDR, the taxpayer should notify the IRS
 delinquent. Problems that exist and reasons for the delay     immediately, explain the circumstances for the delay, and a
 should be discussed and resolved if possible.”                revised due date should be considered.”
                                                               “The IRS will promptly evaluate the IDR responses for
 “Upon receipt of the response to the request for
                                                               completeness and, after a thorough analysis of the
 information, the requester will timely review the records
                                                               responses, will discuss the results of the review with the
 received for completeness.”
                                                               taxpayer.”

                                   ISSUE DEVELOPMENT AND RESOLUTION
                                                               “Under the CAP, the IRS and taxpayers work together on a
 “An important objective of the [IRS] is to resolve tax
                                                               contemporaneous basis toward the goal of achieving an
 differences at the lowest level without sacrificing the
                                                               acceptable level of tax compliance prior to the filing of the
 quality and integrity of those determinations.”
                                                               tax return.”
 “Ensure there are open communications with the taxpayer       “The [CAP] Program focuses on issue identification and
 and that the taxpayer is actively involved in the             resolution through transparent and cooperative interaction
 examination planning process.”                                between taxpayers and the IRS.”
 “The team manager should periodically meet with               “The IRS and taxpayers should work together during the
 appropriate levels of company management to discuss the       CAP to identify and resolve issues. The IRS and taxpayers
 progress of the examination and to resolve any developing     should regularly engage in discussions for the purpose of
 problems.”                                                    resolving factual or technical differences.”

Source: LB&I Division Guide for Quality Examinations (IRM 4.46) and CAP procedures (IRM 4.51.8).


                                                                                                                       Page 5
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed



To gain an understanding of the process and determine the effectiveness of management
controls, we reviewed and discussed with LB&I Division officials the key CAP management
controls that covered the application and acceptance process; contact between CAP teams and
taxpayers; training/orientation provided to CAP teams and taxpayers; the responsibilities of CAP
Account Coordinators; and the identification, development, and resolution of tax issues. We
judgmentally selected a sample of 10 audits9 from the 101 taxpayers that participated in the CAP
during TY 2009.10 During our sample audit review, we conducted on-site visitations with the
CAP teams to discuss activity and obtain supporting documentation. Although we found some
variations and minor exceptions, in general we found the CAP cases were being administered in
accordance with IRS policies and procedures.
The results of our sample review are consistent with the findings from LB&I Division’s quality
reviews, which are conducted in the fiscal year11 following the tax return due dates. As shown in
Figure 3, the overall quality scores for the pilot program years indicate that the CAP audits
generally followed the policies and procedures initially established for the program.




9
  Our review of CAP audits included all IRS activity, both before and after the filing of the taxpayer’s return.
10
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population. A
judgmental sample was used because of limited auditing resources and time. Selection criteria included a mix of
taxpayers’ asset levels, industry types, years of CAP experience, case status, and geographic location. CAP
TY 2009 was used because it was the most current period and included taxpayers that completed the prefiling
review (and a majority had also completed the postfiling review).
11
   A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.


                                                                                                             Page 6
                    The Compliance Assurance Process Has Received Favorable
                             Feedback, but Additional Analysis of Its
                                  Costs and Benefits Is Needed



             Figure 3: Summary of CAP Quality Review Audits and Scores

         Number
            of       Number       Percentage                     Quality
 CAP     Audits      of Audits     of Audits        Overall      Review
 Tax      in the      Quality       Quality         Quality      Fiscal
 Year      CAP       Reviewed     Reviewed           Score        Year           Sampling Methodology

                                                      Not                  Review process established and tested;
 2005       17           17          100%                         2007
                                                    Applicable             100 percent sample.
 2006       35           35          100%             91.8%       2008     100 percent sample.
 2007       72           27         37.5%             93.8%       2009     Random sample.
 2008       95           30         31.6%             95.3%       2010     Random sample.
                                                                           Judgmental sample for taxpayers not
 2009       101          18         17.8%             98.0%       2011
                                                                           previously reviewed.
                                                                           Judgmental sample for taxpayers not
 2010       112          17         15.2%           In Process    2012
                                                                           previously reviewed.
                                                                           The IRS plans to select a random
 2011       140                  To Be Determined                 2013     sample with additional stratification for
                                                                           taxpayers not previously reviewed.
                                                                           The IRS plans to select a random
 2012       178                  To Be Determined                 2014
                                                                           sample.

Source: Treasury Inspector General for Tax Administration’s (TIGTA) summary of the IRS’s CAP quality analysis
reports for TYs 2005–2010 and explanatory data provided by the IRS.

However, our review noted several issues in the administration of the quality reviews for CAP
audits. Specifically, although the quality review process has been performed for six fiscal years
and the overall quality review scores have been consistently high, the IRS has yet to establish a
target goal for the quality score. Also, the quality review sample size has steadily declined as a
percentage of the CAP audits and the sample selection methodologies differed from year to year.
While these issues do not invalidate the results of the quality reviews, a more consistent
approach would have made the results more comparable between years of the pilot as well as
between the pilot and the future results for the permanent program. LB&I Division officials
informed us that a standardized random sampling methodology will be used starting in Fiscal
Year (FY) 2014, when the first CAP permanent program year (TY 2012) is reviewed.

Many Key Issues Were Addressed in Planning and Implementing the
Compliance Assurance Process
Among the recommended practices for developing and implementing new business processes, or
for improving existing ones, is to establish an overall framework with detailed steps for carrying
out the various phases of a project. The Government Accountability Office (GAO), with input

                                                                                                            Page 7
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed



from discussions with managers in private industry and in other Federal agencies, developed a
best practice framework that involves 20 steps and is based on its Business Process
Reengineering Assessment Guide.12 As discussed in Appendix IV, the framework is designed to
help ensure that potential obstacles are considered, problems are pinpointed and addressed, costs
and benefits are analyzed, and results are accurately evaluated.
We used the GAO’s 20-step best practice framework as criteria to assess how closely IRS
personnel considered the recommended steps in planning, implementing, and evaluating
the CAP. In using the GAO’s approach, it is important to recognize that although the IRS
established a similar framework in April 2009, it was not in place when IRS personnel planned
and began implementing the CAP as a pilot program in March 2005. We believe it is equally
important to recognize that, according to the GAO, a degree of discretion is involved in making
judgments about each of the steps, and some steps are not appropriate for every project.
Consequently, we followed steps outlined in the GAO’s framework and used IRS statistics,
results from discussions with IRS personnel, data analyses, the IRM, sample case reviews, and
IRS strategic planning documents for our assessment. As shown in Figure 4, except for the areas
involving productivity measures and evaluation, IRS personnel successfully met, or partially
met, 16 of the 19 applicable steps during planning and implementing of the CAP.




12
     GAO, GAO/AIMD-10.1.15, Business Process Reengineering Assessment Guide (May 1997).


                                                                                           Page 8
                         The Compliance Assurance Process Has Received Favorable
                                  Feedback, but Additional Analysis of Its
                                       Costs and Benefits Is Needed



     Figure 4: Assessment of the CAP Pilot Program Using GAO Best Practices

                Best Practices                         Included
             Advocated by the GAO                       in Pilot                Comments or Explanations

 Identify productivity baseline.                          Y
                                                                   Satisfaction survey results were used along with results of
                                                                   reviews over the technical accuracy and thoroughness of
 Include complexity and quality in productivity
                                                          P        the activity. However, other productivity measures, such
 measures.
                                                                   as the amount of additional taxes recommended, were not
                                                                   used to capture results from the CAP prefiling activities.
 Map current process.                                     Y
                                                                   Data available and used to compare the length of the CAP
                                                                   to the length of traditional audits. However, some
 Compare current productivity to internal and
                                                          P        productivity measures such as the amount of additional
 external benchmarks.
                                                                   taxes recommended were not captured for the CAP
                                                                   prefiling activities.
 Identify causes of weak performance.                     Y
 Measure gap between current and desired                           To date, there has not been any analysis to measure the
                                                          N
 productivity.                                                     gap between current and desired productivity.
 Understand the best practices of others.                N/A
 Analyze alternatives.                                    Y
 Design new process to close productivity gap.            N        Desired level of performance is not quantitatively defined.
 Obtain executive support.                                Y
 Assess barriers to implementing changed process.         Y
 Assess resource needs and availability.                  Y
 Conduct pilot tests.                                     Y
 Adjust target process based on pilot results.            Y
 Define roles and responsibilities.                       Y
 Establish employee expectations for new process.         Y
                                                                   In addition to lacking an evaluation plan, there were no
 Develop plans to monitor and evaluate new
                                                          N        predefined criteria to determine what would constitute a
 process.
                                                                   success.
 Establish a change management strategy.                  Y
 Establish a transition team.                             Y
 Develop workforce training plans.                        Y

                                             Y - Yes     N - No       P - Partial
Source: TIGTA’s evaluation of the CAP pilot program using the GAO 20-step framework and data provided by the
IRS.

                                                                                                                      Page 9
                   The Compliance Assurance Process Has Received Favorable
                            Feedback, but Additional Analysis of Its
                                 Costs and Benefits Is Needed



By considering most of the steps in planning and implementing the CAP, the LB&I Division
positioned itself to implement the CAP smoothly and according to plan. For example, the IRS
has long used key productivity measures that include the total additional taxes recommended
during an audit to show that its examiners annually identify billions of dollars in additional taxes
that may be owed by our Nation’s largest corporations. Other IRS productivity measures, such
as cycle time, have shown that the audits of large corporations typically started months or even
years after tax returns were filed and then took several more years to complete. As reflected in
publications and public notices, IRS personnel used this baseline data along with other
information in deciding a change was needed in how it approached audits of large corporations
to ensure that they complied with the tax law. Specifically, the IRS concluded its current process
was far too lengthy and burdensome on both IRS resources and those of large corporations.
IRS personnel also developed and implemented a CAP pilot program that lasted from
March 2005 through March 2011. This was designed to provide an opportunity for the IRS and
large corporations to test how the CAP would work in actual practice and address problem areas
detected in the process. During the pilot program, IRS personnel developed and refined detailed
procedures that were ultimately incorporated into the IRM and are currently being used to
provide needed guidance and direction to IRS personnel and taxpayers involved in the CAP
permanent program. Notably, the procedures include a requirement that both the IRS and the
taxpayers execute a Memorandum of Understanding early in the CAP. Among other things, the
Memorandum of Understanding describes the steps that will be followed and establishes
accountability by specifying the roles and responsibilities for both parties, including
communication and disclosure responsibilities.
Importantly, LB&I Division personnel also applied some lessons learned from an earlier
initiative to address potential barriers that could hamper the implementation of the CAP. In
October 2003, the Commissioner, LB&I Division, announced the Currency and Cycle Time
Improvement Initiative (currency initiative) to “realize significant gains in cycle time, currency,
return closures, rates, and audit coverage performance” by identifying opportunities to close aged
inventory and replace it with more current work. While the initiative was well intentioned, some
employees expressed resistance to the changes introduced by the initiative. As TIGTA
previously reported,13 this generated adverse publicity for the initiative, including concerns that
significant tax issues might have been overlooked because audits were closed prematurely to
meet the initiative’s deadlines.
In contrast to the currency initiative, which was largely communicated in a downward fashion
from the top of the LB&I Division, senior managers used a variety of communication channels to
reach out to employees, taxpayers, union representatives, and other stakeholders for ideas,


13
 TIGTA, Ref. No. 2008-30-181, Although the Large and Mid-Size Business Division’s Currency Initiative Was
Considered a Success, Improvements Could Be Made in Future Initiatives (Sept. 2008).


                                                                                                    Page 10
                  The Compliance Assurance Process Has Received Favorable
                           Feedback, but Additional Analysis of Its
                                Costs and Benefits Is Needed



suggestions, and support for the CAP. The various communication channels, such as e-mail,
face-to-face meetings, large and small group meetings, intranet websites, surveys, and town hall
meetings, facilitated a two-way exchange that allowed for input from employees, taxpayers, and
other stakeholders. For example, the CAP articles written by the Commissioner, LB&I Division,
were published in at least two popular tax administration journals and provided stakeholders and
interested readers with a consistent message on how the CAP worked, the rationale for its
implementation along with details on its goals and expected benefits, origin and evolution, and
implementation process. These articles also provided details on the progress being made to
implement the CAP and employee and taxpayer experiences with the process.

A Well-Defined Evaluation Plan Needs to Be Developed and
Implemented
Despite the fact that the CAP pilot program ran for six calendar years and the permanent
program is in its second calendar year of operation, the LB&I Division has yet to develop and
implement a plan to thoroughly evaluate CAP data. By developing and implementing an
evaluation plan that includes objective measures for defining success, the LB&I Division could
enhance the credibility and transparency of the results the CAP is generating while helping avoid
any perception of bias. Careful assessment of the CAP may also lead to the identification of
necessary revisions to further enhance the process as well as permit LB&I Division officials, the
Congress, and other stakeholders to adequately assess whether the CAP is generating sufficient
benefits in relation to its costs. According to the GAO’s best practice framework, a sound
evaluation plan should contain key elements such as clearly stated objectives that measure
success against well-defined standards and detailed steps for verifying that sufficient benefits are
being realized in relation to the costs being incurred.

Objectives that are clear and measureable can help ensure that the appropriate
data are collected and measured against the standards that define success
In announcing the CAP pilot program, the IRS articulated that the objectives and approach for
the program would be to:
      Reduce taxpayer burden and uncertainty while assuring the IRS of the accuracy of tax
       returns prior to filing, thereby reducing or eliminating the need for postfiling
       examinations.
      Reduce taxpayer burden through the contemporaneous exchange of information about
       completed events and transactions that affect tax liability rather than through the
       traditional examination process.
      Foster compliance by helping the IRS achieve its goal of shortening examination cycles
       and increasing currency for taxpayers while enhancing the accurate, efficient, and timely
       final resolution of increasingly complex corporate tax issues.
                                                                                            Page 11
                       The Compliance Assurance Process Has Received Favorable
                                Feedback, but Additional Analysis of Its
                                     Costs and Benefits Is Needed



          Assist in increasing audit coverage by providing a more efficient use of resources.
          Allow taxpayers to better manage tax reserves and ensure more precise reporting of
           earnings on financial statements.
The Commissioner, LB&I Division, described the CAP as a strategy to benefit taxpayers in
terms of the possibility of achieving tax certainty sooner and with less administrative burden and
to benefit the IRS in terms of reduced resource burdens and the ability to identify emerging
taxpayer issues and compliance risks more readily. The IRS Commissioner similarly alluded to
the CAP in prepared remarks to the American Institute of Certified Public Accountants in
November 2011 as an innovative strategy for issue resolution that is less time and resource
intensive for both the IRS and taxpayers.
In June 2012, the LB&I Division added objectives to the CAP IRM that were similar to those
announced at the start of the pilot program. Although the IRS has articulated the objectives for
the CAP, they are not as clear as they could be due in part to the absence of standards that would
enable determining if and when the objectives are achieved. For instance, one of the objectives
states that the CAP will foster “compliance by helping the IRS achieve its goal of reducing
overall examination cycle time and increasing currency for participating taxpayers while
enhancing the accurate, efficient, and timely resolution of complex tax issues,” but it does not
explain what complex tax issues will be involved or how many would need to be resolved
accurately, timely, and efficiently to foster compliance. Nor are the objectives measurable. For
example, one of the objectives states that taxpayers “are able to achieve tax certainty sooner and
with less administrative burden than in the traditional postfiling examination program” and the
CAP “assists in increasing audit coverage by providing a more efficient use of audit resources,”
but it does not specify how much of a reduction in burden or increased coverage would indicate
success.

Accurately measuring costs and benefits, including any savings generated, can
help ensure that sufficient benefits are realized in relation to the costs incurred
Recognizing the importance of assessing the costs and benefits of new business processes, the
Office of Management and Budget (OMB) developed guidance that recommends agencies
conduct a sound cost-benefit analysis before initiating any long-term project that extends three or
more years into the future.14 The guidelines are intended to promote efficient resource allocation
through well-informed decision making and include, among other things, a detailed plan to
verify results.
The LB&I Division has developed information for the CAP through formal assessments of
taxpayer and employee satisfaction surveys that overall shows taxpayers and examiners are

14
     OMB, Circular A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs (Oct. 1992).


                                                                                                         Page 12
                    The Compliance Assurance Process Has Received Favorable
                             Feedback, but Additional Analysis of Its
                                  Costs and Benefits Is Needed



satisfied with their CAP experiences. For example, the results of surveys conducted during the
CAP pilot found that most taxpayers described the IRS’s commitment to the CAP as strong and
commented positively on their interactions with the CAP teams regarding information requests.
The majority of the survey respondents indicated they would like to see the CAP continue as a
way of doing business with the IRS, and most expressed a desire to continue participating in the
program.
As shown in Figure 5, we compared15 productivity statistics for the CAP audits of corporations
with assets of more than $250 million to traditional audits of similar size corporations over a
five-year period (FYs 2007 through 2011) and found that the CAP audits were completed sooner
overall and achieved tax certainty earlier. Specifically, the cycle time for the CAP audits was an
average of almost 24 months with tax certainty reached at an average of eight and a half months
after the return was filed. By comparison, traditional audits were concluded an average of about
40 months after the return was filed, which is a year and a third longer than the CAP audits
overall and more than two and a half years longer from when returns are filed.




15
  At the time of our review, the LB&I Division had not yet compared the performance statistics of the CAP audits
to traditional audits of taxpayers that are similar to taxpayers involved in the CAP.


                                                                                                         Page 13
                           The Compliance Assurance Process Has Received Favorable
                                    Feedback, but Additional Analysis of Its
                                         Costs and Benefits Is Needed



                            Figure 5: LB&I Division Productivity Statistics
                        for Corporations With Assets More Than $250 Million16

               Productivity                                                                                        Five-Year
                 Statistic                      FY 2007      FY 2008       FY 2009       FY 2010      FY 2011      Averages17
                                                 CAP CLOSURE RESULTS
Corporate Returns Closed                                7           31            61            77           97
Total FY 2007–2011 Corporate Returns Closed                                                                 273               55
Average Cycle Time in Months                          24.0         24.9          23.9          22.5         24.8          23.9
                            Prefiling Average         18.3         15.1          15.7          14.3         16.0          15.4
                           Postfiling Average          5.7          9.8           8.2           8.2          8.8              8.5
                               18
Average Staff Hours per Return                     4,348.0      4,054.1       3,216.8       2,659.4      2,449.8       2,911.1
                            Prefiling Average      3,905.9      3,389.0       2,565.8       1,909.5      1,802.0       2,237.2
                           Postfiling Average        442.1       665.0          651.0         749.9       647.8          674.0
Average Tax Increase per Return                 $6,674,067   $5,406,303   $10,316,927   $10,842,279   $6,776,404    $8,556,092
Average Tax Increase per Staff Hour                $1,535       $1,334        $3,207        $4,077       $2,766        $2,939

                                      TRADITIONAL AUDIT CLOSURE RESULTS
Corporate Returns Closed                            3,230        3,509          3,632         3,275       3,568
Total FY 2007–2011 Corporate Returns Closed                                                              17,214          3,443
Average Cycle Time in Months                          45.7         39.9          37.8          35.9         38.2          39.4
Average Staff Hours per Return                      975.9        868.0          838.3         876.3       727.6          854.5
Average Tax Increase per Return                 $7,392,459   $6,916,557    $7,861,111    $7,244,912   $6,678,483    $7,218,271
Average Tax Increase per Staff Hour                $7,575       $7,969        $9,377        $8,267       $9,178        $8,448

   Source: LB&I Division Table 37, computer extract data from the Audit Information Management System, and CAP
   data provided by the IRS.

   However, our analysis also found that the CAP audits are consuming substantially more staff
   hours than those under the traditional audit process. The large difference between the five-year
   average staff hours spent on the CAP audits and traditional audits (2,911 compared to 855 staff
   hours per return or almost three and a half times more staff hours) raises a number of issues that

   16
      We also conducted additional detailed analyses that considered fiscal year and five-year average results by asset
   levels, industry case types, and audit selection sources in which the results of the analyses showed similar patterns as
   those displayed here.
   17
      The five-year averages are based on the totals (not averages) for the 273 CAP and 17,214 traditional closures
   during each of the five fiscal years and divided by five. The totals for each fiscal year are not shown in Figure 5.
   18
      Due to rounding, the prefiling average plus the postfiling average may not always equal the sum average.


                                                                                                                   Page 14
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed



underscores the importance of including a sound cost-benefit analysis in an overall evaluation of
the CAP.
One issue involves determining the effect the staff hours spent on the CAP is having on the
LB&I Division’s ability to increase audit coverage, which is a key benefit envisioned under the
CAP. For the CAP to assist in increasing audit coverage, it must demonstrate a savings of
resources that can be applied toward additional audits by either using fewer resources in its
process or providing benefits to other audits. As noted in Figure 5, CAP audits are using fewer
staff hours than in the past (2,450 in FY 2011 versus 4,348 staff hours in FY 2007) but are still
consuming more than three times more hours than the traditional audit process. Therefore, the
CAP has yet to show that it will increase audit coverage by using fewer resources. The LB&I
Division provided examples of emerging issues identified from the CAP audits that included
domestic production deduction19 and repatriation,20 which implies increased audit coverage, but
without a cost-benefit analysis it is not known if this justifies the additional staff hours used in
the CAP. Determining the effect of staff hours spent on the CAP is equally important for the
LB&I Division to ensure that the enforcement resources being devoted to the CAP do not
diminish its ability to provide audit coverage over the large businesses that do not comply with
the tax laws and choose not to volunteer for the CAP.
The second issue involves determining the effect the CAP is having on revenue in terms of the
amount of additional taxes examiners are identifying and recommending that taxpayers may
owe. As shown in Figure 5, examiners generated a larger five-year average of additional
recommended taxes for each CAP return audited ($8.5 million) compared to traditional audited
returns ($7.2 million). These additional recommended taxes during the CAP generally stemmed
from issues that could not be resolved before the return was filed. However, as noted previously,
examiners used far more staff hours on CAP returns than traditional returns, which in turn makes
the hourly rate for the CAP approximately a third of the hourly rate examiners generated from
traditional audits, $2,939 versus $8,448, respectively. The vast majority of CAP staff hours
(77 percent) were consumed in the prefiling stage reviewing taxpayer-provided data and
information collected from a variety of third-party sources, such as Securities and Exchange
Commission filings, in an effort to identify and resolve potential issues relating to each CAP tax
return before it was filed. Neither we nor the IRS know the effect the hours are having on
revenue because a method to reliably measure this prefiling activity has yet to be developed and
implemented by the LB&I Division.
The third issue involves assessing the effect the LB&I Division’s lack of prior experience with
potential new CAP taxpayers will have on resources. During the pilot program, almost all


19
   Internal Revenue Code (I.R.C.) Section (§) 199 provides for domestic manufacturers to receive a deduction for the
net income resulting from the domestic production of products.
20
   To send money that has been earned or invested abroad back to its owner’s country of origin.


                                                                                                          Page 15
                  The Compliance Assurance Process Has Received Favorable
                           Feedback, but Additional Analysis of Its
                                Costs and Benefits Is Needed



taxpayers that participated in the CAP were corporations, and all had assets of $250 million or
more. In addition, taxpayers were selected to participate in part due to previous audit history.
Now that the CAP is a permanent program, almost all LB&I Division taxpayers are eligible to
participate. Consequently, there is a risk that as the CAP expands to include a broader
population of taxpayers with lower asset levels that have not been audited extensively, the lack
of familiarity with a taxpayer’s financial statements, books, records, and other data may require
additional staff hours to ensure that the returns are prepared and filed in a manner that is
substantially compliant with the tax laws.
During the conclusion of our fieldwork, we were informed that the IRS’s Office of Research,
Analysis, and Statistics recently started coordinating with the LB&I Division to research and
develop innovative ways to determine the indirect benefits of the permanent CAP program. This
new initiative was in response to a February 2011 IRS Commissioner’s request. However, the
IRS has not yet started to develop an evaluation plan to assess CAP performance to address the
issues we identified during our review.

Recommendation
Recommendation 1: The Commissioner, LB&I Division, should ensure that an evaluation
plan is developed and implemented to thoroughly assess the CAP. At a minimum, the evaluation
plan should include clearly stated objectives that measure success against well-defined standards
and detailed steps for verifying that sufficient benefits are being realized in relation to the costs
being incurred.
       Management’s Response: IRS management agreed with this recommendation and
       will continue to develop and implement an evaluation plan for the CAP, including
       performance indicators and cost-benefit analyses.
       Office of Audit Comment: Although the Commissioner, LB&I Division, agreed with
       our recommendations, she also commented that showing the difference in hours spent on
       CAP audits from the hours spent on traditional audits does not draw a meaningful
       comparison. She appears to base this on the view that the traditional examination
       statistics cited were not comparable based on average taxpayer size and variance in the
       type of examinations. We do not agree with this view. As discussed in this report,
       almost all taxpayers that were audited under the CAP were corporations with assets of
       $250 million or more and these audits consumed more than three times the examiner
       hours of traditional audits of corporations with assets of $250 million or more. Further,
       the report notes that the variance in the type of audits was incorporated into additional
       detailed analyses and the results showed a similar pattern in CAP consuming more hours.
       Moreover, such comparisons are important to allow the LB&I Division to ensure that the
       enforcement resources being devoted to the CAP do not diminish its ability to provide
       audit coverage over the large businesses that do not comply with the tax laws and choose

                                                                                             Page 16
                   The Compliance Assurance Process Has Received Favorable
                            Feedback, but Additional Analysis of Its
                                 Costs and Benefits Is Needed



        not to volunteer for a CAP audit. This is especially important now that the CAP is a
        permanent program and almost all LB&I Division taxpayers are eligible to participate.

The Compliance Assurance Process Needs to Be Included in
Upcoming Reviews of Potential New User Fee Sources
Much like the fees paid to drive on toll roads or to airlines for additional luggage, Federal
Government user fees are intended to cover the costs an agency incurs to provide goods or
services that are beyond what is provided to the general public. Such fees are based on the
principle that those who receive special benefit from a Federal Government program or activity
should bear the cost of receiving such benefit.
User fees were initially authorized by Congress under the Independent Offices Appropriations
Act of 195221 and are currently governed by OMB Circular A-25.22 As noted in a 2008 GAO
report,23 there has been a noticeable increase in the amount of user fee collections. Specifically,
the report cited figures from data compiled by the OMB that showed total user fee collections
increased 69 percent from $138 billion in FY 1999 to $233 billion in FY 2007. A number of
factors are likely contributing to increasing popularity of the fees as the following excerpt from
the GAO report illustrates.
        As the nation continues to change in fundamental ways, a wide range of needs
        and demands have emerged, for example, evolving defense and homeland security
        programs, increasing global interdependence, and advances in science and
        technology. At the same time, our current long-term simulations of the federal
        budget show ever-larger deficits. As funds become increasingly scarce and new
        priorities emerge, policymakers have demonstrated interest in user fees as a
        means of financing new and existing services.
In the IRS, user fees are imposed on a variety of services that range from helping taxpayers
satisfy outstanding tax liabilities and resolving tax issues before filing a tax return to clarifying
areas of the tax law and registering tax return preparers. Although user fee collections are
expected to reach $309 million in FY 2012, the IRS has not always adhered to established
guidelines for administering user fees. For example, TIGTA reported in September 200524 that
the salary and benefit costs the IRS was incurring for PFAs with large businesses were far
outpacing what was being recovered in user fees. To address this issue, IRS officials agreed to
evaluate its compliance with OMB Circular A-25 and determine the appropriate user fee to

21
   31 U.S.C. 9701.
22
   OMB, Circular A-25, Transmittal Memorandum No. 1, User Charges (July 1993).
23
   GAO, GAO-08-386SP, Federal User Fees: A Design Guide, p. 1 (May 2008).
24
   TIGTA, Ref. No. 2005-30-151, The Pre-Filing Agreement Program for Large Businesses Has Yielded Modest
Results (Sept. 2005).


                                                                                                   Page 17
                   The Compliance Assurance Process Has Received Favorable
                            Feedback, but Additional Analysis of Its
                                 Costs and Benefits Is Needed



charge for PFAs. Subsequently, the IRS changed PFA user fees for large businesses from a
three-tier structure that had a maximum fee of $10,000 to a single fee of $50,000. In addition, in
May 2008, TIGTA reported25 that installment agreement user fee cost estimates were based on
incorrect assumptions and contained calculation errors and unsupported costs. To address these
issues, the IRS (1) developed and published instructions in the IRM for calculating the full cost
of the services provided and (2) validated the cost estimate used for setting installment
agreement user fees.
More recently, the GAO reported in November 201126 that the IRS conducts a review of its user
fees every two years as required and is improving how it estimates its costs of providing user fee
services. However, the GAO also reported that the IRS omitted fees from its review process, did
not clearly document assumptions to be used in some cost estimates, and lacked documentation
of factors considered in setting some fees. In addition, the GAO found the IRS did not fully
document final decisions made on fee rates as a result of its review and may not be taking full
advantage of its process for identifying new user fees. IRS officials agreed with the findings and
responded that they plan to incorporate corrective actions into their FY 2013 review of user fees.
As the IRS moves forward with plans to implement corrective actions in response to the GAO’s
findings, it would be worthwhile for LB&I Division officials to ensure that the CAP is included
in their next review of potential new user fee sources. Although LB&I Division officials
acknowledged that the decision about CAP user fees was not documented, they stated that fees
should not be imposed on CAP participants because the CAP is part of the LB&I Division’s core
responsibility to audit tax returns. LB&I Division officials also stated that the CAP should not
be funded by the participants because it provides tax administration benefits that include
enhancing the IRS’s ability to better identify emerging issues, establish needed guidance, and
allocate compliance resources.
We recognize that auditing tax returns is a responsibility of the LB&I Division and that the CAP
has tax administration benefits. Nevertheless, there are a number of important reasons to review
the CAP as a potential new user fee source along with documenting the factors considered during
the review. First, the review and related documentation would be consistent with the
expectations of OMB27 and GAO28 standards for internal control in the Federal Government.
According to these control standards, reviews should be documented to help maintain the
continuing usefulness of the results for making and supporting decisions and for providing
assurances that policies and procedures are being carried out as directed.

25
   TIGTA, Ref. No. 2008-40-113, Installment Agreement User Fees Were Not Properly Calculated or Always
Collected (May 2008).
26
   GAO, GAO-12-193, User Fees: Additional Guidance and Documentation Could Further Strengthen IRS’s
Biennial Review of Fees (Nov. 2011).
27
   OMB, Circular A-123, Management’s Responsibility for Internal Control (Dec. 2004).
28
   GAO, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government (Nov. 1999).


                                                                                                   Page 18
                  The Compliance Assurance Process Has Received Favorable
                           Feedback, but Additional Analysis of Its
                                Costs and Benefits Is Needed



The second reason for evaluating the CAP as a potential new user fee source is to ensure that the
IRS is complying with Federal Government policy reflected in OMB Circular A-25. According
to OMB Circular A-25, a user fee is required to be collected from recipients who receive special
benefits from a Federal activity. For the purposes of OMB Circular A-25, special benefits are
considered ones that (1) enable the recipient to obtain more immediate or substantial gains or
values than those available to the general public, (2) provide business stability or contribute to
public confidence in the business activity of the recipient, or (3) are performed at the request of
the recipient and is beyond the services regularly received by other members of the same
industry or group or by the general public. Besides being a taxpayer-initiated process that is
limited to companies that fall under the jurisdiction of the LB&I Division, the CAP provides a
participating company with the certainty that its income tax returns are compliant with tax laws.
Achieving tax return certainty can, in turn, significantly enhance public and investor confidence
in the integrity of the company’s financial statements because it eliminates or reduces the need to
(1) maintain tax reserves in the statements for uncertain tax positions and (2) make additional
disclosures about uncertain tax positions. For example, Financial Accounting Standards Board
Interpretation No. 48, Accounting for Uncertainty in Income Taxes, requires disclosures in the
financial statements that show the total amount of unrecognized tax benefits that, if recognized,
would affect the tax rate used to determine the company’s profits, the total interest and penalties
related to the unrecognized tax benefits that may be owed, and a description of the tax years that
may be audited by the IRS.
Third, the review and documentation could provide explanation and support for charging a
$50,000 user fee for participating in the LB&I Division’s PFA program and no user fee for
participating in the CAP notwithstanding the similarities of the two processes. As outlined in
Figure 6, both processes are initiated by a large business taxpayer to cooperatively resolve tax
issues before a return is filed to provide tax certainty while reducing costs and burden.




                                                                                           Page 19
                         The Compliance Assurance Process Has Received Favorable
                                  Feedback, but Additional Analysis of Its
                                       Costs and Benefits Is Needed



                   Figure 6: Comparison of Processes for the PFA and the CAP

      Process
       Topic               Description for the PFA                                     Description for the CAP
                   A taxpayer-initiated process with an              A taxpayer-initiated process structured to conduct real-time
                   objective to resolve, before returns are filed,   compliance reviews to establish the correct tax treatment of tax
                   issues that are likely to be disputed in          return positions prior to a taxpayer filing its Federal income
     Overview      postfiling audits. The taxpayer and the IRS       tax return. The CAP focuses on issue identification and
                   work in a cooperative environment to              resolution through transparent and cooperative interaction
                   resolve issues.                                   between the taxpayers and the IRS.
                   Taxpayers under the jurisdiction of the           Taxpayers under the jurisdiction of the LB&I Division that are
                   LB&I Division are eligible to apply for a         publicly held entities with a legal requirement to prepare and
                   PFA. Both Coordinated Industry and                submit disclosure forms to the Securities and Exchange
     Eligibility   Industry cases29 are eligible.                    Commission or, if privately held, agree to provide to the IRS
                                                                     certified, audited financial statements and not be under
                                                                     investigation or in litigation that would limit the IRS’s access
                                                                     to current tax records.
                   The process does not determine the tax            The CAP does not provide taxpayers with guidance on, or
                   treatment of prospective or future                resolution of, prospective or incomplete transactions outside of
                   transactions or events, but only completed        existing procedures. Taxpayers are expected to make open,
                   transactions or events whose tax treatment        comprehensive, and contemporaneous disclosures of their
                   has not yet been reported on a return. The        completed business transactions that could have a material
                   IRS will consider issues that require a           effect on their Federal income tax liability. Further, taxpayers
       Scope       determination of facts, the application of        must disclose their proposed tax positions with regard to these
                   established legal principles to known facts,      disclosures. The IRS and the taxpayer will jointly determine
                   or a methodology used to determine the            the scope of the CAP review, including materiality thresholds.
                   amounts for an item of income, allowance,         However, the ultimate decision of identifying transactions,
                   deduction, or credit. A user fee will be          items, and issues for compliance review remains within the
                   assessed for each separate and distinct           discretion of the IRS.
                   issue.
                   If agreement is reached, the determination        An Issue Resolution Agreement is prepared for each item or
                   will be recorded in a PFA and be a closing        issue that is resolved in the CAP. At the end of the CAP year,
                   agreement under I.R.C. § 7121 for the             and as deemed appropriate by the IRS, the completed Issue
                   current taxable year; however, the PFA is a       Resolution Agreement(s) is incorporated into a closing
                   nonstatutory binding agreement if the             agreement(s). If a taxpayer has fully complied with the terms
 Conclusion        determination involves a future taxable           of the CAP at the conclusion of the prefiling stage, the IRS
                   year. The IRS will review the subsequently        will provide the taxpayer with an Acceptance Letter that
                   filed return to insure compliance with the        constitutes written confirmation that, subject to the completion
                   terms of the PFA.                                 of a postfiling review of the return, the IRS will accept the
                                                                     taxpayer’s return as it relates to the resolved items and issues if
                                                                     the return is filed consistent with the agreement(s).




29
  The LB&I Division serves corporations, subchapter S corporations, and partnerships with assets more than
$10 million and divides these taxpayers into two category case types called Coordinated Industry and Industry.
Coordinated Industry cases generally involve the Nation’s largest taxpayers and are usually audited by teams of
examiners. Industry cases are generally assigned to one examiner.


                                                                                                                              Page 20
                    The Compliance Assurance Process Has Received Favorable
                             Feedback, but Additional Analysis of Its
                                  Costs and Benefits Is Needed



  Process
   Topic              Description for the PFA                                   Description for the CAP
              Taxpayers and the IRS often resolve issues       Taxpayers are able to achieve tax certainty sooner and with
              more effectively and efficiently through a       less administrative burden during the CAP than in the
              prefiling examination than a postfiling          traditional postfiling examination program. This allows
              examination because the taxpayer and the         taxpayers to better manage tax reserves and ensure more
              IRS have more timely access to the records       precise reporting of earnings on financial statements. The
              and personnel that are relevant to the issues.   CAP fosters compliance by helping the IRS achieve its goal of
  Benefits    A prefiling examination also provides the        reducing overall examination cycle time and increasing
              taxpayer with certainty regarding the            currency for participating taxpayers while enhancing the
              examined issue at an earlier point than a        accurate, efficient, and timely resolution of complex tax issues.
              postfiling examination. These procedures         In addition, the CAP assists in increasing audit coverage by
              benefit both taxpayers and the IRS by            providing a more efficient use of resources.
              improving the quality of tax compliance
              while reducing costs, burdens, and delays.
              All information provided to and agreements       All information provided to the IRS in connection with the
              reached with the IRS are considered return       CAP is return information protected from disclosure by the
              information protected from disclosure by         confidentiality provisions of I.R.C. § 6103.
              the confidentiality provisions of
              I.R.C. § 6103.                                   The IRS’s participation in the prefiling review during the CAP
                                                               does not constitute an examination or inspection of the
   Legal      The taxpayer agrees that the review of           taxpayer’s books of account for purposes of I.R.C. § 7605(b).
 Protection   records and information under the PFA
              procedures does not constitute an inspection
              within the meaning of I.R.C. § 7605(b) and
              will not preclude or impede the IRS from
              later examining any return or inspecting any
              records.

Source: TIGTA’s analysis of IRS Revenue Procedure 2009-17 PFA program (IRM 4.30.1), and CAP procedures
(IRM 4.51.8).

The fourth reason for evaluating the CAP as a potential new user fee source is the amount of
revenue at stake for the Federal Government. The potential amount of user fees for the first CAP
permanent program year (TY 2012) would have been $8.9 million if the 178 participating
taxpayers were required to submit a user fee similar to the PFA user fee of $50,000. In FY 2011,
the IRS calculated the actual average cost of a PFA to be $134,600. Therefore, the potential user
fee revenue for the CAP could be substantially higher if the actual costs of the CAP exceeded
$50,000 and the potential CAP user fee is set closer to actual costs.

Recommendation
Recommendation 2: Once revised IRS-wide user fee guidelines are implemented, the
Commissioner, LB&I Division, should ensure that the guidelines are used to evaluate the CAP as
a potential new user fee source.




                                                                                                                      Page 21
         The Compliance Assurance Process Has Received Favorable
                  Feedback, but Additional Analysis of Its
                       Costs and Benefits Is Needed



Management’s Response: IRS management agreed with this recommendation and
once the IRS-wide user fee guidelines are implemented, they will evaluate the CAP
program to determine if it is an appropriate program for a user fee.




                                                                           Page 22
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed



                                                                                                    Appendix I

         Detailed Objectives, Scope, and Methodology

The objectives of this review were to determine the extent to which the planning,
implementation, and evaluation for the CAP followed published guidance and whether it is being
administered in accordance with IRS policies and procedures. To accomplish our objectives, we:
I.       Determined if the steps used to plan, implement, and evaluate the CAP were consistent
         with the GAO 20-step business process reengineering approach (see Appendix IV) by
         interviewing LB&I Division officials and obtaining supporting documentation.
II.      Developed a profile of the CAP taxpayer population and determined if taxpayer segments
         within the LB&I Division customer base that generally meet current CAP eligibility
         requirements were adequately considered during the CAP testing. Specifically, we
         compared statistics for the 161 taxpayers that participated during the CAP pilot
         (TYs1 2005 through 2011) to LB&I Division tax return statistic tables for traditional
         examinations conducted during Processing Years2 2007 through 2011 to determine if
         applicable taxpayer segments were included in the CAP.
III.     Assessed if taxpayers should pay a user fee to participate in the CAP program.
         Specifically, we conducted research to determine when the IRS should apply user fees,
         interviewed LB&I Division officials to determine if user fees were considered for the
         CAP, compared and contrasted the CAP with the LB&I Division’s PFA program3 to
         determine if user fees are being equitably applied, and calculated the amount of user fees
         that could have been collected during the pilot and future CAP activity.
IV.      Determined the effectiveness of CAP management controls by reviewing sample cases.
         To gain an understanding of the process, we reviewed and discussed with LB&I Division
         officials the CAP management controls that covered the application and acceptance
         process; contact between CAP teams and taxpayers; training/orientation provided to CAP
         teams and taxpayers; the responsibilities of Account Coordinators and management; the
         identification, development, and resolution of tax issues; and examination job rotation.
         We judgmentally selected4 10 of the 101 CAP TY 2009 cases based on availability of
         auditing resources and case locations, and to obtain a mix of cases that considers asset

1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  The calendar year in which the tax return or document is processed by the IRS.
3
  Revenue Procedure 2005-12.
4
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.


                                                                                                             Page 23
                 The Compliance Assurance Process Has Received Favorable
                          Feedback, but Additional Analysis of Its
                               Costs and Benefits Is Needed



       levels, industry types, and years of experience with the CAP program. The sample cases
       were reviewed by conducting on-site visitations with the CAP teams to discuss case
       activity and obtain supporting documentation for management controls. The results were
       compared to the findings of the LB&I Division quality review process.
V.     Assessed the CAP potential to achieve selected benefits as stated by the IRS (e.g., reduce
       cycle time, save staff resources, reduce taxpayer burden). We discussed with LB&I
       Division officials and obtained supporting documentation for their efforts to measure and
       report on the CAP accomplishments. In addition, we obtained the raw computer data
       used for LB&I Division management reports of closed corporation examination results
       during FYs 2007 through 2011. A review of the data including comparison of summary
       totals to LB&I Division management reports determined these data are sufficiently
       reliable for our testing needs. Using the computer data, summary results including
       average cycle time, staff resources, and tax increases for just the CAP and similar LB&I
       Division closed corporation cases were determined and compared.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: guidance from the GAO for business
process changes; guidance from the OMB for user fees; and IRS policies, procedures, and
practices for resolving examinations. We evaluated these controls by reviewing source material,
interviewing management, reviewing sample cases, and evaluating summary program results
including quality review results.




                                                                                         Page 24
                The Compliance Assurance Process Has Received Favorable
                         Feedback, but Additional Analysis of Its
                              Costs and Benefits Is Needed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Acting Director
Robert Jenness, Audit Manager
Aaron Foote, Lead Auditor
Carole Connolly, Senior Auditor
Donna Saranchak, Senior Auditor




                                                                                      Page 25
                The Compliance Assurance Process Has Received Favorable
                         Feedback, but Additional Analysis of Its
                              Costs and Benefits Is Needed



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn.: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large Business and International Division SE:LB
Director, Pre-Filing and Technical Guidance SE:LB:PFTG
Deputy Director, Pre-Filing and Technical Guidance SE:LB:PFTG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Large Business and International Division SE:LB




                                                                             Page 26
                     The Compliance Assurance Process Has Received Favorable
                              Feedback, but Additional Analysis of Its
                                   Costs and Benefits Is Needed



                                                                                               Appendix IV

                           Recommended Approach for
                           Business Process Changes

The three figures in this appendix present summary information on the criteria the GAO
developed for use when considering, planning, and implementing new business processes or
improving existing business processes. The GAO developed the approach based on its Business
Process Reengineering Assessment Guide and discussions with top-level managers in private
industry as well as in other Federal agencies.
    Figure 1: Recommended Steps in Considering a Potential Process Change

            Steps                                                 Description
                                Similar to flowcharting, process mapping is a graphical representation of the
                                various activities, procedures, roles, and responsibilities within one or more
 Map current process            business processes. Its purpose is to help present a clear picture of the current
                                processes to help identify the root causes for under performance and achieve the
                                desired level of improvement.
 Identify productivity          Baseline data are needed to provide measures from the current processes to use in
 baselines                      comparing the level of improvement achieved by the new process.
                                This step involves identifying the factors or combination of factors that are
 Identify causes of poor
                                causing the poor performance in the current process. Examples could include a
 performance
                                lack of resources and/or regulatory requirements.
                                Productivity measures the efficiency with which a process uses resources to
 Include complexity and
                                produce a product or service, such as the number of audits an IRS examiner
 quality in productivity
                                completes in a month. To be accurate, a combination of measures is generally
 measures
                                needed and consideration is given to the level of difficulty involved.
 Measure gap between            Ideally, the level of performance improvement desired should be achievable and
 current and desired            based on empirical data that define where a particular performance level is and
 productivity                   where the level of improvement is sought.
                                Benchmarks are measures from which performance improvement can be
 Compare current
                                quantified. They provide reference points that can be used to help identify and
 productivity to internal and
                                close performance gaps between processes used in other organizations and/or in
 external benchmarks
                                different functions within the same organization.
Source: TIGTA’s summary of the GAO’s 20 steps for process improvement.




                                                                                                          Page 27
                      The Compliance Assurance Process Has Received Favorable
                               Feedback, but Additional Analysis of Its
                                    Costs and Benefits Is Needed



                   Figure 2: Recommended Steps for Planning a Process

           Steps                                                 Description
                              Identifying and using best practices is a form of benchmarking that involves
                              adapting practices of others to reach new improvement levels. It is especially
 Use best practices
                              recommended that Government agencies use business organizations in private
                              industry for this purpose.
                              Quantitative data are needed to support changing to a new process that shows the
 Design process to close      change will narrow the gap between current performance and the desired level of
 productivity gap             performance. To add credibility and avoid any perception of bias in making the
                              change, the desired level of performance sought should be specified.
                              Alternative process changes that may produce the same level of improvement
                              should be explored in terms of their relative costs and benefits. Such exploration
 Analyze alternatives
                              can be done through limited testing and may identify a more cost-effective
                              approach to achieving the same or similar results.
                              Executive support and oversight throughout a process change is important for a
                              number of reasons that include ensuring resources are available, securing support
 Obtain executive support
                              from internal and external stakeholders, and approving proposed recommendations
                              for implementation.
                              Identifying and assessing the costs of overcoming potential barriers to
                              implementing a change is important because it may ultimately prove to be too great
 Assess barriers to
                              a burden. Examples of barriers could include laws, regulations, employee union
 implementing changes
                              agreements, lack of resources, current political environment, and/or lack of
                              executive support.
                              Before initiating a process improvement project, it is important to ensure that the
 Assess resource needs and
                              resources are available to design, plan, and implement the change. Otherwise,
 availability
                              there is a risk the new change will be only partially implemented.
Source: TIGTA’s summary of the GAO’s 20 steps for process improvement.




                                                                                                          Page 28
                       The Compliance Assurance Process Has Received Favorable
                                Feedback, but Additional Analysis of Its
                                     Costs and Benefits Is Needed



         Figure 3: Recommended Steps for Implementing a Process Change

            Steps                                                   Description
                                 In short, pilot testing is designed to show intended benefits from a change that can
                                 in fact be realized. It involves evaluating how well the process change works in
 Conduct pilot tests             practice, pinpointing and correcting problems, and refining performance measures.
                                 Importantly, it can also strengthen executive and other stakeholder support for
                                 moving from testing to full-scale operation.
                                 This step is designed to incorporate and test needed changes to the new process
 Adjust process based on pilot
                                 based upon lessons learned in earlier pilot testing.
 Define roles and                To ensure accountability, it is vital to designate the specific personnel who will be
 responsibilities                responsible for making the process improvement.
                                 Developing and issuing new performance expectations needs to be considered and
 Establish employee
                                 developed if the new process causes traditional roles, responsibilities, and
 expectations
                                 expectations to change for employees.
                                 An evaluation plan is one of the first steps needed for evaluating the success of
                                 process change and needs to include a combination of performance measures for
 Monitor and evaluate the        weighing the costs of the new process against expected benefits, determining
 new process                     whether the process is achieving desired results, and assessing if further
                                 improvements are needed. To enhance credibility and avoid potential bias, the
                                 criteria about what would constitute a success needs to be defined.
                                 Change management is a structured approach for how best to address the
                                 transitional issues associated with moving to a new process. These issues, among
 Establish a change
                                 others, include addressing resistance to a new way of conducting business that
 management strategy
                                 may be encountered within an organization or work unit. The approach should be
                                 designed to build support and positive attitudes for the change.
                                 Typically, a transition team is responsible for managing the implementation of a
 Establish a transition team     new process. As such, the team should develop a plan that communicates the
                                 various aspects of the new process, its goals, and how it will be implemented.
                                 In general, employee training plans need to be considered and developed if the
                                 change is going to significantly alter traditional roles and responsibilities. For
 Develop workforce training
                                 example, employees may need training to learn new technical or communication
 plans
                                 skill sets if they are going to successfully take on new responsibilities or be
                                 expected to work more independently under the new process.
Source: TIGTA’s summary of the GAO’s 20 steps for process improvement.




                                                                                                             Page 29
    The Compliance Assurance Process Has Received Favorable
             Feedback, but Additional Analysis of Its
                  Costs and Benefits Is Needed



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 30
The Compliance Assurance Process Has Received Favorable
         Feedback, but Additional Analysis of Its
              Costs and Benefits Is Needed




                                                   Page 31
The Compliance Assurance Process Has Received Favorable
         Feedback, but Additional Analysis of Its
              Costs and Benefits Is Needed




                                                   Page 32
The Compliance Assurance Process Has Received Favorable
         Feedback, but Additional Analysis of Its
              Costs and Benefits Is Needed




                                                   Page 33
